                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
June 15, 2012

Report Number: A-04-10-01091

Craigan L. Gray, M.D., M.B.A., J.D.
Director
Division of Medical Assistance
2501 Mail Service Center
Raleigh, NC 27699-2501

Dear Dr. Gray:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled North Carolina Incorrectly Claimed Enhanced Federal
Reimbursement for Some Medicaid Waiver Services That Were Not Family Planning. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Truman Mayfield, Audit Manager, at (850) 942-8900 extension 22 or through email at
Truman.Mayfield@oig.hhs.gov. Please refer to report number A-04-10-01091 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Craigan L. Gray, M.D., M.B.A., J.D

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




  NORTH CAROLINA INCORRECTLY
   CLAIMED ENHANCED FEDERAL
REIMBURSEMENT FOR SOME MEDICAID
 WAIVER SERVICES THAT WERE NOT
        FAMILY PLANNING




                         Daniel R. Levinson
                          Inspector General

                             June 2012
                           A-04-10-01091
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In North Carolina, the Division of Medical
Assistance (State agency) is responsible for administering the Medicaid program.

The amount of funding that the Federal Government reimburses to State Medicaid agencies,
known as the Federal share, is determined by the Federal medical assistance percentage (FMAP).

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age who are eligible under the State plan and who desire such
services and supplies.

Pursuant to Section 1903(a)(5) of the Act and Federal Regulations, 42 CFR § 433.10(c)(1), the
amount the Federal Government is authorized to reimburse the State for expenditures in family
planning services is calculated at an FMAP of 90 percent (enhanced rate). North Carolina’s
Administrative Code (10A NCAC § 13J.1402(a)(2)(C)) requires that providers adequately
document services in the medical records.

From October 1, 2005, through September 30, 2007, the Federal Government reimbursed the
State agency, at the enhanced rate, $5,027,113 (Federal share) for Medicaid family planning
waiver services for pharmacy, sterilization, and clinic and practitioner claims.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid family planning
waiver reimbursement in accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Medicaid family planning waiver reimbursement in
accordance with Federal and State requirements. Of 100 pharmacy claims in our simple random
sample, 60 claims totaling $2,644 (Federal share) met requirements. However, the remaining
40 claims totaling $ 1,641 (Federal share) did not meet requirements. Based on our sample
results, we estimated that the State agency improperly claimed $662,790 (Federal share) in
Medicaid waiver reimbursement for pharmacy claims from October 1, 2005, through September
30, 2007.




                                                i
In addition, of 65 sterilization claims and 230 clinic and practitioner claims that we sampled,
3 sterilization claims and 21 clinic and practitioner claims did not qualify for reimbursement
because the claims were not supported by consent forms that met Federal Requirements.

Based on our judgmental samples of sterilization claims and clinic and practitioner claims, the
State agency improperly claimed $2,038 (Federal share) and $1,998 (Federal share),
respectively, in Federal Medicaid waiver funds. We calculated these overpayments as the entire
Federal Financial Participation amount because Medicaid waiver beneficiaries were not eligible
for regular Medicaid.

The State agency made these improper claims because it did not have adequate controls to ensure
that it claimed only Medicaid family planning waiver services at the enhanced rate.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $662,790 to the Federal Government for non-family-planning pharmacy waiver
       claims that were reimbursed at the enhanced rate,

   •   refund $2,038 to the Federal Government for non-family-planning sterilization, waiver
       claims that were reimbursed at the enhanced rate,

   •   refund $1,998 to the Federal Government for non-family-planning clinic and practitioner
       waiver claims that were reimbursed at the enhanced rate,

   •   improve controls to ensure that the State agency claims the enhanced rate only for
       Medicaid family planning waiver services, and

   •   reemphasize to providers that only services clearly provided for family planning purposes
       should be billed as family planning.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally did not concur with three of
our five recommendations. The State agency concurred with our second and third
recommendations to refund $2,038 and $1,998 to the Federal Government to the extent that the
State agency may have claimed enhanced Federal financial participation (FFP) for non-family
planning sterilization claims, and clinic and practitioner waiver claims, respectively.

In response to our first recommendation to return FFP for family planning pharmacy claims that
neither the pharmacy nor the prescriber could produce supporting documentation for, the State
agency did not agree that it should refund the majority of the pharmacy waiver claims to the
Federal Government. We had recommended that the State agency return to the Federal
Government the estimated $711,936 in pharmacy claims because the pharmaceuticals on 43 of
the 100 sampled claims may have been prescribed for purposes other than family planning.)

                                                 ii
Specifically, the State agency maintains that all pharmaceuticals in the contraceptive therapeutic
class should be eligible for the enhanced family planning matching rate. Further, the State
agency stated that the only way to ensure that pharmaceuticals in the contraceptive therapeutic
class are prescribed only for family planning purposes would require implementing a
methodology that is inconsistent with current medical practice and that would place an undue,
disproportionate burden on prescribers of contraceptive drugs and pharmacies alike. For the
same reasons, the State generally disagreed with our fourth and fifth recommendation.

The State agency also stated that we were inconsistent in our interpretation of Federal
requirements for claiming enhanced FFP for family planning services and supplies and that our
findings were therefore not consistent with other issued OIG reports. The State agency’s
comments appear in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments and additional documentation provided by the
State agency, we modified our first recommendation by removing three claims and adjusted our
estimated overpayments for pharmacy claims accordingly. Nothing in the State agency’s
comments caused us to change our other findings or recommendations. We correctly applied
Federal requirements to each of the reviewed claims.

Furthermore, the State agency’s statement that our interpretation of Federal requirements during
this audit is inconsistent with that of OIG audits in other States is inaccurate. OIG audits vary in
objective, scope, and methodology. Therefore, OIG applies only those elements specific to the
circumstances of the State it is auditing.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION ................................................................................................................... 1

          BACKGROUND ............................................................................................................. 1
              Medicaid Program ................................................................................................. 1
              State of North Carolina Medicaid Program .......................................................... 1
              Medicaid Waiver Coverage of North Carolina Family Planning Services .......... 1

          OBJECTIVE, SCOPE AND METHODOLOGY ............................................................. 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

          FEDERAL AND STATE REQUIREMENTS.................................................................. 4
               Family Planning .................................................................................................... 4
               Adequate Documentation...................................................................................... 4

          PHARMACY CLAIMS .................................................................................................... 5

          STERILIZATION CLAIMS............................................................................................. 5

          CLINIC AND PRACTITIONER CLAIMS...................................................................... 6

          INADEQUATE CONTROLS .......................................................................................... 6

          UNALLOWABLE AMOUNT ........................................................................................ 6

          RECOMMENDATIONS .................................................................................................. 7

          STATE AGENCY COMMENTS ..................................................................................... 7

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 8


APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS

                                                                     iv
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1902(a)(27) of the Act and implementing Federal regulations (42 CFR
§ 433.32), Medicaid providers must maintain documentation that fully discloses the extent of the
services provided to the beneficiary. In addition, Federal regulations (42 CFR § 441.253) require
States to maintain documentation indicating that all Medicaid sterilization patients (1) were at
least 21 years old at the time of the procedure; (2) were not mentally incompetent; and
(3) voluntarily gave informed consent at least 30 days, but not more than 180 days, prior to the
date of sterilization.

State of North Carolina Medicaid Program

In North Carolina, the Division of Medical Assistance (State agency) is responsible for
administering the Medicaid program. The State agency contracts with HP Enterprise Services
(formerly Electronic Data Systems) to maintain its Medicaid Management Information System, a
computerized payment and information reporting system that processes and pays Medicaid
claims.

North Carolina’s Administrative Code (10A NCAC § 13J.1402(a)(2)(C)) complements 42 CFR
§ 433.32 by requiring that providers adequately document services in the medical records.
Specifically, the beneficiary’s service record must contain a record of all services provided,
including dates and times of the service(s), with entries dated and signed by the individual
providing the service.

Medicaid Waiver Coverage of North Carolina Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age (including minors who can be considered sexually active) who
are eligible under the State plan and who desire such services and supplies.

Pursuant to Section 1903(a)(5) of the Act and Federal Regulations, 42 CFR § 433.10(c)(1), the
amount the Federal Government is authorized to reimburse the State for expenditures in family
planning services is calculated at an Federal medical assistance percentage of 90 percent
(enhanced rate).

                                                1
Effective October 1, 2005, CMS approved a Medicaid waiver for the State of North Carolina.
The Family Planning waiver was designed to reduce unintended pregnancies and improve the
well-being of children and families in North Carolina by extending eligibility for family planning
services to women and men whose income is at or below 185 percent of the Federal poverty
level. Individuals who would not otherwise be eligible for Medicaid coverage may be eligible
under the waiver program.

According to section 4270 of the CMS State Medicaid Manual (the manual) family planning
services are those that prevent or delay pregnancy or otherwise control family size. That
provision of the manual also generally permits the enhanced rate for the following family
planning services and items: counseling services and patient education, examination and
treatment by medical professionals according to each State’s requirements, devices to prevent
conception, and infertility services. The manual provides that only items and procedures clearly
furnished or provided for family planning purposes maybe claimed at the enhanced rate.

From October 1, 2005, through September 30, 2007, the Federal Government reimbursed the
State agency at the enhanced rate for 86,722 claims totaling $5,027,113 (Federal share) for
Medicaid family planning waiver services for pharmacy, sterilization, clinic and practitioner
claims.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Medicaid family planning
waiver reimbursement in accordance with Federal and State requirements.

Scope

Our audit covered certain Medicaid family planning waiver claims that the Federal Government
reimbursed to the State agency at the enhanced rate for the period October 1, 2005, through
September 30, 2007. We did not review the overall internal control structure of the State agency
or the Medicaid program. We limited our review to internal controls directly related to our
objective. 1 We performed fieldwork at the State agency in Raleigh, North Carolina, from
November 2010 through April 2011.

Methodology

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and the manual;



1
 We reviewed family planning claims reimbursed under the State agency’s standard Medicaid program in a separate
audit (A-04-10-01089).

                                                      2
    •    interviewed State agency officials to understand the State’s policies, procedures,
         guidance, and methodology for claiming Medicaid reimbursement for family planning
         waiver services;

    •    obtained claims data from the State agency for family planning waiver services consisting
         of 86,722 pharmacy, sterilization, and clinic and practitioner claims totaling $5,027,113
         (Federal share) with dates of service from October 1, 2005, through September 30, 2007;

    •    selected a simple random sample of 100 pharmacy claims ($4,285 Federal share) from
         54,106 family planning pharmacy waiver claims and:

              o contacted providers to obtain medical record information for each sampled claim,

              o contacted pharmacies that filled the prescriptions for sampled pharmacy claims in
                which the prescribing physician was not known,

              o reviewed the written physician notes in the corresponding medical records to
                determine whether the drugs were prescribed for family planning purposes, and

              o obtained an independent medical review of all medical records for which we
                could not determine whether the drugs where prescribed for family planning
                purposes;

    •    selected judgmental samples of 30 beneficiaries of sterilization services and 30
         beneficiaries of clinic and practitioner services from 32,616 family planning, sterilization,
         and clinic and practitioner waiver claims and:

              o requested and reviewed the medical records for 65 sterilization claims ($51,121
                Federal share) for these 30 beneficiaries 2 to verify that all documentation was
                completed in accordance with Federal regulations and

              o requested and reviewed the medical records for 230 clinic and practitioner claims
                ($8,630 Federal share) for these 30 beneficiaries to verify that all documentation
                was completed in accordance with 42 CFR §§ 433.32 and 441.253; 3 and

    •    followed up with providers to obtain additional information when supporting
         documentation was inadequate or missing.

For our simple random sample of pharmacy claims, we estimated the total overpayment in the
sample frame. (See Appendix A for our sample design and methodology and Appendix B for

2
  A single beneficiary sterilization often resulted in multiple claims (e.g., preliminary visits and postoperative
followup).

3
 Beneficiaries may have had more than one clinic or practitioner claim for the same date of service or had multiple
dates of service based on the nature of the claims.

                                                            3
our sample results and estimates.) We did not estimate the total overpayment in the population
we reviewed for the 295 claims associated with the 60 judgmentally selected beneficiaries of
sterilization and clinic and practitioner services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Medicaid family planning waiver reimbursement in
accordance with Federal and State requirements. Of 100 pharmacy claims in our simple random
sample, 60 claims totaling $2,644 (Federal share) met requirements. However, the remaining 40
claims totaling $1,641 (Federal share) did not meet requirements. Based on our sample results,
we estimated that the State agency improperly claimed $662,790 (Federal share) in Medicaid
waiver reimbursement for pharmacy claims from October 1, 2005, through September 30, 2007.

In addition, of 65 sterilization claims and 230 clinic and practitioner claims that we sampled,
3 sterilization claims and 21 clinic and practitioner claims did not meet the requirements. Based
on our judgmental samples of sterilization claims and clinic and practitioner claims, the State
agency improperly claimed $2,038 (Federal share) and $1,998 (Federal share), respectively, in
Federal Medicaid waiver funds. We calculated these overpayments as the entire Federal
Financial Participation amount because Medicaid waiver beneficiaries were not otherwise
eligible for Medicaid.

The State agency made these improper claims because it did not have adequate controls to ensure
that it claimed only Medicaid family planning waiver services at the enhanced rate.

FEDERAL AND STATE REQUIREMENTS

Family Planning

Section 4270 of the manual generally permits an enhanced rate of Federal reimbursement for
medically approved methods, procedures, pharmaceutical supplies, and devices to prevent
conception. Pursuant to section 4270(B)(2) of the manual, “[o]nly items and procedures clearly
provided or performed for family planning purposes may be matched at the 90 percent rate.”

Adequate Documentation

Pursuant to section 1902(a)(27) of the Act and implementing Federal regulations (42 CFR
§ 433.32), Medicaid providers must maintain documentation that fully discloses the extent of the
services provided to the beneficiary. The beneficiary’s service record must contain a record of
all services provided , including dates and times of the service, with entries dated and signed by
the individual providing the service (10A North Carolina Administrative Code

                                                4
§ 13J.1402(a)(2)(C)). Therefore, for a claim to be valid for Medicaid reimbursement, it must be
adequately documented.

Federal regulations (42 CFR § 441.253) require States to maintain documentation indicating that
all Medicaid sterilization patients (1) were at least 21 years old at the time of the procedure;
(2) were not mentally incompetent; and (3) voluntarily gave informed consent at least 30 days,
but not more than 180 days, prior to the date of sterilization.

PHARMACY CLAIMS

The State agency did not always properly claim Federal reimbursement at the enhanced rate for
pharmacy claims. Of 100 pharmacy claims in our simple random sample, 60 claims totaling
$2,644 (Federal share) qualified for reimbursement at the enhanced rate. However, of the other
40 pharmacy claims, 9 claims totaling $284 (Federal share) were prescribed for purposes other
than family planning, and 31 claims totaling $1,357 (Federal share) did not have adequate
documentation.

For 9 sampled claims, independent medical reviewers determined that doctors prescribed the
drugs for other than family planning purposes, such as prenatal vitamins, antibiotics, excessive
bleeding, and weight control. Although doctors often prescribe the drugs associated with these
claims for family planning purposes, the medical records for these claims indicated that doctors
prescribed them for other than family planning purposes.

Thirty-one sampled claims were not adequately documented to be eligible for Federal
reimbursement. For 16 of these 31 claims, doctors were unable to identify the patient or provide
medical records supporting the pharmacy claims. For the remaining 15 claims, we were unable,
after multiple attempts, to locate the prescribing physician using the information provided by the
State agency.

See Appendix A for our sampling methodology for pharmacy claims, and Appendix B for our
sample results and estimates.

STERILIZATION CLAIMS

The State agency did not always properly claim Federal reimbursement at the enhanced rate for
sterilization claims. Of the 65 sterilization claims that we reviewed, 62 claims totaling $49,084
(Federal share) qualified for reimbursement at the enhanced rate. However, of the remaining
three claims, one claim totaling $1,533 (Federal Share) related to an inpatient stay, and two
claims totaling $505 (Federal Share) did not have adequate documentation.

The North Carolina Family Planning waiver program specifically excludes inpatient stays. The
two other claims were inadequately documented to be eligible for Federal reimbursement at the
enhanced rate. Missing documentation resulted from unidentifiable patients whose records the
State agency could therefore not locate, physicians who were no longer employed at the facility,
or providers whom we could not contact because the information provided by the State agency
was incorrect for our audit period.

                                                5
CLINIC AND PRACTITIONER CLAIMS

The State agency did not always properly claim Federal reimbursement at the enhanced rate for
clinic and practitioner claims. Of the 230 clinic and practitioner claims we reviewed, 209 claims
totaling $6,632 (Federal Share) qualified for reimbursement at the enhanced rate. However, 21
claims did not. Of these 21 claims, 4 claims totaling $155 (Federal Share) were not related to
family planning, and 17 claims totaling $1,843 (Federal Share) did not have adequate
documentation.

Of the four sampled claims that were not related to family planning, one claim totaling $43
(Federal share) was on behalf of a patient who was pregnant and three claims totaling $112
(Federal share) were for heavy bleeding, vaginal discharge, or pain during intercourse.

The remaining 17 sampled claims did not have adequate documentation to be eligible for Federal
reimbursement. Missing documentation resulted from unidentifiable patients whose records the
State agency could therefore not locate, physicians who were no longer employed at the facility,
or providers whom we could not contact because the information provided by the State agency
was incorrect for our audit period.

INADEQUATE CONTROLS

The State agency made improper claims, resulting in overpayments, because it did not have
adequate controls to ensure that it claimed only allowable family planning waiver services.
Specifically, the State agency did not have sufficient policies and procedures to:

   •   ensure that providers always billed appropriately for family planning purposes and

   •   ensure that all pharmacy claims were prescribed for family planning purposes.

UNALLOWABLE AMOUNT

Based on our simple random sample of pharmacy claims, we estimated that the State agency
improperly claimed $662,790 (Federal share) in Federal Medicaid waiver reimbursement for
pharmacy claims that were not prescribed for family planning purposes or that lacked
documentation. (See Appendix B for our detailed sample results.)

From our judgmental sample of sterilization claims, we found that the State agency improperly
claimed $2,038 (Federal share) in Federal Medicaid waiver funds.

From our judgmental sample of clinic and practitioner claims, we found that the State agency
improperly claimed $1,998 (Federal share) in Federal Medicaid waiver funds.

We did not estimate the total amount of overpayments for the population of all sterilization and
clinic and practitioner claims.


                                                6
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $662,790 to the Federal Government for non-family-planning pharmacy waiver
       claims that were reimbursed at the enhanced rate,

   •   refund $2,038 to the Federal Government for non-family-planning sterilization waiver
       claims that were reimbursed at the enhanced rate,

   •   refund $1,998 to the Federal Government for non-family-planning clinic and practitioner
       waiver claims that were reimbursed at the enhanced rate,

   •   improve controls to ensure that the State agency claims the enhanced rate only for
       Medicaid family planning waiver services, and

   •   reemphasize to providers that only services clearly provided for family planning purposes
       should be billed as family planning.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally did not concur with three of
our five recommendations. The State agency concurred with our second and third
recommendations to refund $2,038 and $1,998 to the Federal Government to the extent that the
State agency may have claimed enhanced Federal financial participation (FFP) for non-family
planning sterilization claims, and clinic and practitioner waiver claims, respectively.

In response to our first recommendation to return FFP for family planning pharmacy claims that
neither the pharmacy nor the prescriber could produce supporting documentation for, the State
agency did not agree that it should refund the majority of the pharmacy waiver claims to the
Federal Government. We had recommended that the State agency return to the Federal
Government the estimated $711,936 in pharmacy claims because the pharmaceuticals on 43 of
the 100 sampled claims may have been prescribed for purposes other than family planning.)
Specifically, the State agency maintains that all pharmaceuticals in the contraceptive therapeutic
class should be eligible for the enhanced family planning matching rate. Further, the State
agency stated that the only way to ensure that pharmaceuticals in the contraceptive therapeutic
class are prescribed only for family planning purposes would require implementing a
methodology that is inconsistent with current medical practice and that would place an undue,
disproportionate burden on prescribers of contraceptive drugs and pharmacies alike. For the
same reasons, the State generally disagreed with our fourth and fifth recommendation.

The State agency also stated that we were inconsistent in our interpretation of Federal
requirements for claiming enhanced FFP for family planning services and supplies and that our
findings were therefore not consistent with other issued OIG reports. The State agency’s
comments appear in their entirety as Appendix C.


                                                7
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments and additional documentation provided by the
State agency, we modified our first recommendation by removing three claims and adjusted our
estimated overpayments for pharmacy claims accordingly. Nothing in the State agency’s
comments caused us to change our other findings or recommendations. We correctly applied
Federal requirements to each of the reviewed claims.

Furthermore, the State agency statement that our interpretation of Federal requirements during
this audit is inconsistent with that of OIG audits in other States is inaccurate. OIG audits vary in
objective, scope, and methodology. Therefore, OIG applies only those elements specific to the
circumstances of the State it is auditing.




                                                 8
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY


POPULATION

The population was all Medicaid prescribed drug line items billed as waiver family planning
services by North Carolina Division of Medical Assistance at a Federal medical assistance
percentage of 90-percent (enhanced rate) from October 1, 2005, through September 30, 2007,
audit period.

SAMPLING FRAME

We obtained from the State agency 57,885 line items totaling $2,178,038 (Federal share) from
the Medicaid Management Information System paid claims files. From this population, we
eliminated all negative (credit) adjustment line items and all corresponding positive (debit) line
items for the same person, date of service, and dollar amount. The resulting sampling frame was
54,106 unique prescription drug line items totaling $2,178,181 (Federal share). Each line item is
a unique claim.

SAMPLE UNIT

The sample unit was a claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 items to review.

SOURCE OF RANDOM NUMBERS

A Region IV statistical specialist generated the random numbers using the Office of Inspector
General, Office of Audit Services (OIG/OAS) statistical software, RAT-STATS 2010, Version 1,
Random Number Generator.

METHOD OF SELECTING SAMPLING ITEMS

We consecutively numbered the prescription drug line items from 1 to 54,106. After generating
100 random numbers, we selected the corresponding frame items for the 100 random numbers.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of unallowable payments.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                      Sample Results: Federal Share Amounts

Frame     Value of     Sample   Value of     Number of Claims
                                                                         Overpayments
 Size      Frame        Size    Sample         With Errors
54,106   $2,178,181      100     $4,285            40                       $1,641


                    Estimate of Overpayments (Federal Share)
              (Limits Calculated for a 90-Percent Confidence Interval)


             Point Estimate                                   $888,004
             Lower Limit                                      $662,790
             Upper Limit                                    $1,113,218
                             APPENDIX C: STATE AGENCY COMMENTS                                                Page 1 of 5




                            North Carolina Department of Health and Human Services 

                                 2001 Mail Service Center· Raleigh, North Carolina 27699-2001 

                                             Tel 919-855-4800 • Fax 919-715-4645 

Beverly Eaves Perdue, Governor                                                                      Albert A. Delia, Acting Secretary
                                                     March 7, 2012



        Ms. Lori S. Pilcher 

        Regional Inspector General for Audit Services 

        US DHHS Office of Inspector General 

        61 Forsyth Street SW 

        Suite 3T41 

        Atlanta, GA 30303 


        Re: North Carolina Incorrectly Claimed Enhanced Federal Reimbursement for Some Medicaid Waiver
            Services That Were Not Family Planning
            CIN A-04-10-01091

        Dear Ms. Pilcher:

        The North Carolina Department of Health and Human Services (NCDHHS) received your January 20,
        2012 letter and draft report entitled "North Carolina Incorrectly Claimed Enhanced Federal
        Reimbursementfor Some Medicaid Waiver Services That Were Not Family Planning" [Audit A-04-1O­
        01091].


        OIG Recommendation 1: 

        The recommendations were for the State agency to: 


        • 	 Refund $711,936 to the Federal Government for non-family planning waiver claims that were
            reimbursed at the enhanced rate,

        • 	 Refund $2,038 to the Federal Government for non-family planning sterilization, waiver claims that
            were reimbursed at the enhanced rate,

        • 	 Refund $1,998 to the Federal Government for non-family-planning clinic and practitioner waiver
            claims that were reimbursed at the enhanced rate,

        • 	 Improve controls to ensure that the State agency claims the enhanced rate only for Medicaid family
            planning waiver services, and

        • 	 Reemphasize to providers that only services clearly provided for family planning purposes should be
            billed as family planning.




                                 Location: 101 Blair Drive· Adams Building· Raleigh, N.C. 27603 

                                          An Equal Opportunity I Affirmative Action Employer 

                                                                                                 Page 2 of 5
Ms. Lori S. Pilcher
Audit A-04-1 0-0 1091
March 7, 2012
Page 2 of5


DHHS Response - Recommendation 1:

NC DHHS partially concurs.

To the extent that the Department may have claimed FFP for family planning phannacy claims for
which n either the phannacy nor the prescriber can produce supporting documentation that the
phannaceutical was prescribed at all, and the provider has not declared bankruptcy or gone out of
business, the Department concurs that such FFP should be returned

The Department disagrees with the Office of the Inspector General's (OIG's) recommendation that the
majority ofthe estimated $711,936 be returned to the federal government because the phannaceuticals on
43 ofthe 100 sampled claims may have been prescribed for purposes other than family planning. There
are three primary reasons for the disagreement.

        (I) 	N orth Carolina State law lOA NCAC 22F.OI07 which went into effect on April I, 1988,
             requires that Medicaid billing records be retained for only five years. (The law can be
             viewed at http://ncrules.state.nc.us/ncac/title%20IOa%20­
             %20heaith%20and%20human%20services/chapter"102022%20­
             %20medical%20assistance%20eligibilitv/subchapter''1020fll Oa%20ncac%2022f'1020.0 107 .pd
             fhttp://www.ncdhhs.gov/dma/plan/sp.pdf.) In some sampled claims, the five year period had
             already expired before a records request could be made. Nevertheless, these claims were
             considered unallowable due to "no documentation". The Department asserts that the
             provider is not obligated to retain records for a period longer than contractually required.

             The Department also asserts that the only way to ensure that claims for phannaceuticals in
             the contraceptive therapeutic classification are only claimed at the enhanced match rate when
             prescribed specifically for the purposes of family planning would be to require phannacies to
             include a diagnosis code on the claim. Phannacies would be unable to do this unless the
             prescriber included the diagnosis code on the prescription. Requiring the diagnosis code on
             the prescription is not consistent with current medical practice and places an undue,
             disproportionate burden on prescribers of contraception and phannacies alike and unfairly
             segregates a certain class of medication to be processed differently.

             The Department wishes to address the issue of the stigma that some women associate with
             discussing and requesting contraception. It is not uncommon for individuals to withhold
             sensitive and deeply personal infonnation from health care providers, especially regarding
             sexual activity. Some women may feel more comfortable requesting contraceptives to
             manage dysmenorrhea or menorrhagia rather than for birth control. Further, at the client's
             request, providers may document a non-family planning purpose as the primary reason for
             the prescription in order to allay fears a client may have regarding privacy. Also, for all of
             the 29 claims in question, the patient was a female of child bearing age. No clinical records
             came to our attention that the patients in question were unable to conceive. So while a client
             may request contraception for another reason, it still could prevent a pregnancy despite the
             client's medical records not accurately reflecting the client's sexual activity andlor reasons for
             taking a contraceptive drug. Finally, Section 4270 of the State Medicaid Manual allows
             States to establish a way to identifY family planning services and apply for the enhanced
             match. Therefore, the Department maintains that all pharmaceuticals in the contraceptive
             therapeutic class should be eligible for the enhanced family planning matching rate.
                                                                                               Page 3 of 5
Ms. Lori S. Pilcher
Audit A-04-1O-01091
March 7, 2012
Page 3 of5


        (2) 	Lastly, the Department believes that the OIG is not consistent across state audits in its
             interpretation and application ofthe guidance in the Centers for Medicare and Medicaid
             Services (CMS) Financial Management Review Guide #20 regarding states' claiming of
             enhanced federal financial participation (FFP)for family planning services and supplies.
             Nor does the Department believe that the OIG is consistent across state audits in its
             interpretation and application of Section 4270 ofthe State Medicaid Manual or the cited
             1992 Departmental Appeals Board administrative law ruling.

             During the course ofthe audit, the Department explained to the OIG that North Carolina's
             enhanced claiming for family planning pharmacy claims was governed by therapeutic
             classification code. It appears that many other states use this methodology for claiming
             the enhanced family planning match on pharmacy claims. In other audits conducted by
             the OIG of states' enhanced family planning pharmacy claiming, the Department found
             that in only one of these audits were the specific prescription diagnoses questioned. In the
             majority of these audits, the OIG found no issue with states claiming enhanced FFP on all
             claims for prescriptions with drugs that had been appropriately assigned to the
             contraceptive therapeutic classification code. Specifically, in one audit report released on
             February 28 2011 (A-09-09-00049), the OIG states, "We reviewed $19 million (Federal
             share) for family planning services and supplies that did not contain approved
             diagnosis codes or approved therapeutic classifICation codes." [Emphasis added]. All of
             the I 04 sampled claims in North Carolina's audit contained the appropriate classification
             codes by using the 'family planning indicator' that First Data Bank (national drug file
             compendia) sends to us, and this indicator results in identification of contraceptive
             therapeutic classification codes. Thus, the Department disagrees with the OIG's
             recommendation to return the enhanced FFP for more than 40% of its family planning
             pharmacy claims.

             North Carolina has been using an automated approach through their MMIS system to
             restrict claims for enhanced FFP on family planning to only those claims with a
             pharmaceutical classified as family planning by a nationally recognized organization with
             expertise in the classification of pharmaceuticals.

             An apparently very similar process was proposed by the State of Kansas as quoted in the
             OIG report A-07-09-04146 where the Kansas responded to the OIG recommendations
             stating:

              "As a result, the policy changes implemented on June 18, 2010 ... add new system logic to
             remove the provider from the process ofidentifyingfamily planning services eligible for
             enhanced FFP. The identification offamily planning services takes place in the coding
             and editing ofthe MMIS claims process, which has the advantage ofpreventing claims of
             enhanced FFP for services the provider could have miSidentified as being related to
             family planning. "

             The OIG responded as follows to the above comments:

             "The corrective actions that the State agency described in its comments, should, when
             fully implemented, adequately address ourfindings. " [Emphasis added].

             The North Carolina MMIS has had system edits in place for over a decade in this regard.
             All of the 100 sampled claims in North Carolina's audit contained the appropriate
                                                                                             Page 4 of 5
Ms. Lori S. Pilcher
Audit A-04-lO-OJ091
March 7, 2012
Page 4 of5


             therapeutic classification codes and phannaceuticals that were appropriately assigned to
             those therapeutic classification codes. As such, the Department respectfully disagrees with
             OIG's recommendation to return the enhanced FFP for a quarter of its family planning
             phannacy claims, especially since the OIG has already informed at least one State agency
             that these controls are considered adequate by the OIG.



OIG Recommendation #2

We recommend that the State Agency:

Refund $2,038 to the Federal Government for non-family planning sterilization, waiver claims that were
reimbursed at the enhanced rate.

DHHS Response - Recommendation Z:

NC DHHS partially concurs.

Using an academic, "text book" approach the recommendation seems valid. However, as a practical
matter, the costs to implement a control would likely far exceed any benefit, which in this instance is
$2,038. The cost of additional controls is borne by both the Federal government and the State. Currently
the Department is not able to justify the expenditure for controls which are not cost-effective.



OIG Recommendation #3

We recommend that the State Agency:

Refund $1,998 to the Federal Government for non-family planning clinic and practitioner waiver claims
that were reimbursed at the enhanced rate.

DHHS Response - Recommendation 3:

NC DHHS partially concurs.

Using an academic, "text book" approach the recommendation seems valid. However, as a practical
matter, the costs to implement a control would likely far exceed any benefit, which in this instance is
$1,998. The cost of additional controls is borne by both the Federal government and the State. Currently
the Department is not able to justify controls which are not cost effective.

OIG Recommendation #4:

We recommend that the State Agency:

Improve controls to ensure that the State agency claims the enhanced rate only for Medicaid family
planning waiver services.

DHHS Response - Recommendation 4:

NC DHHS partially concurs.
                                                                                            Page 5 of 5
Ms. Lori S. Pilcher 

Audit A-04-10-01091 

March 7,2012
Page 5 of5


The Department is receptive to cost-effective procedures for strengthening controls which are not
contrary to medical best practices. However, the Department is currently not aware of any control
enhancements in this area which are both cost effective and in compliance with best medical practices.

OIG Recommendation #5

Reemphasize to providers that only services clearly provided for family planning purposes should be
billed as family planning.

DHHS Response - Recommendation 5

NC DHHS disagrees.

This recommendation would be very difficult to implement because the Department does not currently
process claims based upon a specifically stated purpose. Instead, the Department processes claims based
upon service codes which classifY a medical procedure.

We appreciate the assistance and professionalism provided by your staff in the performance of this audit.
Ifyou need any additional information, please contact Monica Hughes at (919) 855-3720.




~#~
Albert A. Delia 	                ./

cc: 	 Dan Stewart, CPA 

      Craigan Gray, MD, MBA, JD 

      Tara Larson 

      Eddie Berryman, CPA 

      Laketha M. Miller, CPA 

      Monica Hughes 

